TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Stronger Management Oversight Is Required
                  to Ensure Valuable Systems Modernization
                   Expertise Is Received From the Federally
                  Funded Research and Development Center
                                  Contractor



                                        October 20, 2006

                              Reference Number: 2007-20-002




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                October 20, 2006


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Stronger Management Oversight Is Required to
                                Ensure Valuable Systems Modernization Expertise Is Received From
                                the Federally Funded Research and Development Center Contractor
                                (Audit # 200620038)

 This report presents the results of our review of the Federally Funded Research and Development
 Center (FFRDC) 1 contractor’s performance. The overall objective of the review was to
 determine whether the FFRDC contractor effectively delivered services, and the Internal
 Revenue Service (IRS) effectively and timely monitored the contractor’s performance.
 The IRS is currently conducting a multiyear, multibillion dollar effort to update its core business
 systems, known as Business Systems Modernization. To facilitate the modernization effort, the
 IRS hired a FFRDC contractor to provide strategic, technical, and program management advice,
 guidance, and support services. The FFRDC uses private resources to accomplish tasks that
 cannot be completed effectively by existing Federal Government employees or contractors.
 Since the inception of the FFRDC contract in 1999, task orders related to the Business Systems
 Modernization program have totaled about $123 million.

 Impact on the Taxpayer
 Our review determined a sample2 of work products delivered by the contractor contributed
 significantly to the IRS modernization effort, and IRS officials were satisfied with the
 contractor’s performance in several areas. However, required annual assessments are not being
 timely completed, performance criteria are undefined, and requirements to document the


 1
     The MITRE Corporation is the IRS FFRDC contractor. See Appendix IV for a glossary of terms.
 2
     See Appendix I for more information related to our methodology for selecting our sample.
               Stronger Management Oversight Is Required to Ensure Valuable
               Systems Modernization Expertise Is Received From the Federally
                    Funded Research and Development Center Contractor


contractor’s performance are lacking. Without strengthened management oversight, the
contractor could deliver products and services that do not meet cost, schedule, and quality goals
leading to wasteful spending of taxpayer funds.

Synopsis
We determined a sample of 25 work products delivered by the contractor contributed
significantly to the IRS modernization effort. For example, the contractor identified
improvements that would enhance the IRS’ ability to maintain a computer system and identified
deficiencies in a proposed schedule that was delivered by another contractor.
In addition to delivering valuable products, the contractor provides advice and counsel, which
IRS officials use to make critical decisions related to the modernization program. We asked key
IRS officials responsible for monitoring the contractor’s performance to rate the quality and
timeliness of advice and counsel provided by the contractor and the overall expertise of contract
officials. IRS officials indicated they were satisfied with the contractor’s performance in these
areas.
While the contractor is currently providing valuable products and services, the business
environment within and outside of the IRS is changing rapidly. Just because the contractor is
meeting today’s needs does not mean it will meet the IRS’ future needs. To ensure the
contractor continues to meet the IRS’ needs, the IRS should more effectively monitor the
contractor’s performance in terms of timeliness, quality, and cost. For example, the IRS does not
prepare a Task Order Monitoring Plan, a practice commonly employed for modernization task
orders, for this contractor’s task orders. A Task Order Monitoring Plan describes the various
Government roles and responsibilities for monitoring and documenting the contractor’s
performance against timeliness, quality, and cost goals. This occurs throughout the task order
period of performance and contributes to a yearly evaluation. While not required, we believe
this is a very good practice for ensuring the continual monitoring of a contractor’s performance.
Also, required annual assessments are not being completed timely, performance criteria are
undefined, and requirements to document the contractor’s performance are lacking.

Recommendation
To ensure the value received from contractor activities remains high and funds are spent wisely,
we recommended the Chief Information Officer develop a Task Order Monitoring Plan for the
FFRDC modernization task orders.




                                                                                                    2
              Stronger Management Oversight Is Required to Ensure Valuable
              Systems Modernization Expertise Is Received From the Federally
                   Funded Research and Development Center Contractor



Response
The Chief Information Officer agreed with our recommendation and will develop monitoring
plans for FFRDC modernization task orders. The monitoring plans will include a requirement to
conduct and document periodic evaluations to assess the timeliness, quality, and costs of
deliverables and services provided by the FFRDC contractor. Management’s complete response
to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                             3
                    Stronger Management Oversight Is Required to Ensure Valuable
                    Systems Modernization Expertise Is Received From the Federally
                         Funded Research and Development Center Contractor




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Contractor Helped Modernize Systems by Providing
          Valuable Products and Expert Advice ..........................................................Page 3
          The Process to Effectively and Timely Monitor the Contractor’s
          Performance Should be Enhanced ................................................................Page 5
                    Recommendation 1:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Glossary of Terms................................................................Page 13
          Appendix V – Management’s Response to the Draft Report .......................Page 15
        Stronger Management Oversight Is Required to Ensure Valuable
        Systems Modernization Expertise Is Received From the Federally
             Funded Research and Development Center Contractor




                       Abbreviations

BSM                 Business Systems Modernization
FFRDC               Federally Funded Research and Development Center
FY                  Fiscal Year
IRS                 Internal Revenue Service
                   Stronger Management Oversight Is Required to Ensure Valuable
                   Systems Modernization Expertise Is Received From the Federally
                        Funded Research and Development Center Contractor




                                            Background

The Internal Revenue Service (IRS) is currently conducting a multiyear, multibillion dollar effort
to update its core business systems, known as Business Systems Modernization (BSM). To
facilitate the modernization effort, the IRS hired a Federally Funded Research and Development
Center (FFRDC)1 contractor to provide strategic, technical, and program management advice,
guidance, and support services. The FFRDC uses private resources to accomplish tasks that
cannot be completed effectively by existing Federal Government employees or contractors.
Numerous Government agencies use FFRDCs to conduct long-term research and development.
In accordance with the Federal Acquisition Regulation,2 the FFRDC contractor has access to
Government data, employees, and facilities that is beyond that of normal contractors. In fact, the
IRS considers the FFRDC contractor a partner, instead of a contractor. FFRDC officials work
closely with the IRS and function as an integral part of the IRS management team. In 1999, the
IRS initiated a long-term contract with its FFRDC contractor, hereafter referred to as the
contractor.
Services to be provided under the FFRDC contract are divided into major areas, such as Program
and Project Management. Each major area is subdivided into smaller functions and a statement
of work is prepared for each function to document the objectives to be achieved by the contractor
and specific tasks designed to accomplish the objectives. Once a statement of work is agreed
upon, a task order for each function is prepared to define at a high level the scope of the work to
be performed by the contractor.
This review focused on statements of work specifically related to the BSM program, which
include the following task orders:
      •    Program Director Offices’ Support – Provides support to the Deputy Associate Chief
           Information Officer, Program Management, and others responsible for the acquisition,
           management, and deployment of IRS modernization projects.
      •    Program Management – Provides strategic and technical program management advice,
           guidance, and support services.
      •    System Integration – Provides support to the Systems Integration and Infrastructure
           Program Director’s Office.




1
    The MITRE Corporation is the IRS FFRDC contractor. See Appendix IV for a glossary of terms.
2
    48 C.F.R. pt 35.017 (a)(2) (2005).
                                                                                                  Page 1
                           Stronger Management Oversight Is Required to Ensure Valuable
                           Systems Modernization Expertise Is Received From the Federally
                                Funded Research and Development Center Contractor



Since the inception of the FFRDC contract in 1999, task orders related to the BSM program have
totaled about $123 million. The modernization task order amounts for Fiscal Years (FY) 1999
through 2006 are listed in Figure 1.
                              Figure 1: Modernization Task Orders by Fiscal Year
                  $25

                  $20
    In Millions




                  $15

                  $10

                  $5

                  $0
                         FY         FY         FY         FY     FY     FY     FY       FY
                        1999       2000       2001       2002   2003   2004   2005     2006
                        Source: IRS Office of Procurement.
This audit focused on whether the contractor effectively delivered products and services, and the
IRS effectively monitored the contractor’s performance. A separate audit was conducted by
another Treasury Inspector General for Tax Administration business unit to determine whether
selected vouchers submitted and paid under FFRDC task orders were appropriate and in
accordance with the task orders’ terms and conditions.3
This audit was performed at the Modernization and Information Technology Services
organization’s office in New Carrollton, Maryland, during the period November 2005 through
June 2006. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II. A glossary of terms is included in
Appendix IV.




3
 Voucher Audit of the Federally Funded Research and Development Contract – TIRNO-99-D-00005 (Reference
Number 2006-10-140, dated August 31, 2006).
                                                                                                  Page 2
                    Stronger Management Oversight Is Required to Ensure Valuable
                    Systems Modernization Expertise Is Received From the Federally
                         Funded Research and Development Center Contractor




                                        Results of Review

The Contractor Helped Modernize Systems by Providing Valuable
Products and Expert Advice

Products delivered by the contractor supported IRS systems modernization
We determined a sample4 of 25 work products delivered by
the contractor contributed significantly to the IRS                              We determined a sample of
modernization effort. For example, the contractor delivered                    contractor-provided products
products addressing the following significant areas:                           significantly contributed to the
                                                                                    modernization effort.
      •    System Maintenance – The contractor identified
           improvements that would enhance the IRS’ ability to
           maintain the Integrated Financial System after implementation. For example, the
           contractor determined the Integrated Financial System would be difficult to maintain due
           to inconsistent documentation. The contractor recommended improving procedures and
           existing documentation, and performing compliance reviews to ensure compliance with
           new procedures.
      •    Project Schedules – The contractor identified deficiencies in a proposed Customer
           Account Data Engine schedule that was delivered by another contractor. The other
           contractor made clarifications and corrected the deficiencies.
      •    IRS Vision and Goals – The contractor helped the IRS prepare and deliver the
           Enterprise Transition Strategy, which documents the strategy for achieving the vision and
           goals of the IRS.

Advice and counsel provided by the contractor supported IRS systems
modernization
In addition to delivering valuable products, the contractor provides advice and counsel, which
IRS officials use to make critical decisions related to the modernization program. Because the
advice and counsel does not directly result in delivered products, we could not readily determine
whether the advice and counsel met user expectations. Therefore, we developed a questionnaire
to obtain information from key IRS officials responsible for monitoring the contractor’s
performance. The information requested included rating the quality and timeliness of advice and


4
    See Appendix I for more information related to our methodology for selecting our sample.
                                                                                                        Page 3
               Stronger Management Oversight Is Required to Ensure Valuable
               Systems Modernization Expertise Is Received From the Federally
                    Funded Research and Development Center Contractor



counsel provided by the contractor and the overall expertise of contract officials. IRS officials
indicated they were satisfied with the contractor’s performance in these areas. Figure 2 shows
the IRS responses to our questionnaire.
         Figure 2: Advice and Counsel – Quality, Timeliness, and Expertise

                                               Below                         Above
                                Poor                         Average                     Outstanding
                                              Average                       Average
                             (Rating = 1)                  (Rating = 3)                  (Rating = 5)
                                            (Rating = 2)                  (Rating = 4)




                 Quality                                                  Average Rating = 3.71




                Timeliness                                           Average Rating = 3.57




                Expertise                                                  Average Rating = 3.86



              Source: IRS responses to our questionnaire.

We also asked IRS officials to indicate their level of agreement to the following statements:
   •   Appropriate Value – The IRS is receiving appropriate value for the funds being spent
       for contractor advice and counsel.
   •   Independence – The contractor provides an independent viewpoint with expertise that
       could not be obtained internally.
IRS officials generally agreed with these statements. Figure 3 shows the IRS responses.




                                                                                                        Page 4
                     Stronger Management Oversight Is Required to Ensure Valuable
                     Systems Modernization Expertise Is Received From the Federally
                          Funded Research and Development Center Contractor



           Figure 3: Advice and Counsel – Appropriate Value and Independence


                                       Completely         Somewhat       Somewhat      Completely
                                        Disagree           Disagree        Agree          Agree
                                       (Rating = 1)      (Rating = 2)   (Rating = 3)   (Rating = 4)




                      Appropriate
                                                      Average Rating = 3.43
                        Value




                     Independence                     Average Rating = 3.43




                   Source: IRS responses to our questionnaire.

While the contractor is currently providing valuable products and services, the business
environment within and outside of the IRS is changing rapidly. Just because the contractor is
meeting today’s needs does not mean it will meet the IRS’ future needs. To ensure the
contractor continues to meet the IRS’ needs, the IRS should more effectively monitor the
contractor’s performance in terms of timeliness, quality, and cost.

The Process to Effectively and Timely Monitor the Contractor’s
Performance Should Be Enhanced
The Federal Acquisition Regulation5 states acquisition policies and procedures should ensure
contractors provide products and services that meet the expectations of users in terms of
timeliness, quality, and cost. The Federal Acquisition Regulation6 also requires an agency to
evaluate the contractor’s performance at the end of the period of performance for the contract. If
the period of performance is longer than 1 year, the agency must schedule and conduct interim
evaluations. In accordance with this requirement, the IRS requires annual assessments of the
contractor’s performance. In addition to annual assessments, the Office of Procurement requests
monthly feedback from customers related to the quality of products delivered by the contractor


5
    48 C.F.R. pt 1.102-2 (a) (2) (2005).
6
    48 C.F.R. pt 42.1502 (2005).
                                                                                                      Page 5
                     Stronger Management Oversight Is Required to Ensure Valuable
                     Systems Modernization Expertise Is Received From the Federally
                          Funded Research and Development Center Contractor



and documented in the monthly progress reports provided by the contractor. If customers do not
respond to the requests for feedback, the IRS assumes all services were received and acceptable.
The IRS could strengthen management oversight of its contractor because currently the IRS
lacks a comprehensive structure for monitoring the contractor’s performance. For example, the
IRS does not prepare a Task Order Monitoring Plan, a practice commonly employed for
modernization task orders, for this contractor’s task orders. A Task Order Monitoring Plan
describes the various Government roles and responsibilities for monitoring and documenting the
contractor’s performance against timeliness, quality, and cost goals. This occurs throughout the
task order period of performance and contributes to a yearly evaluation. While not required, we
believe this is a very good practice for ensuring the continual monitoring of a contractor’s
performance in the areas of timeliness, quality, and cost. Due to inadequate management
oversight on monitoring the contractor’s performance, we determined the following:
       •   Required annual assessments are not being completed timely – In February 2006, we
           requested the annual assessments for the last 2 fiscal years. The assessment period
           normally ends in November and assessments are
           normally initiated in January. The IRS responded it         As of February 2006, the IRS
           did not complete the FY 2004 annual assessment and            had not initiated required
                                                                        annual assessments of the
           had not begun the FY 2005 annual assessment. IRS           contractor’s performance for
           officials did not conduct an annual assessment for               FYs 2004 or 2005.
           FY 2004 because of an oversight. The IRS did not
           initiate the annual assessment for FY 2005 as
           scheduled due to resource constraints.
           Management Action: The IRS initiated the annual assessments for FYs 2004 and
           2005 in March 2006. In October 2006, the IRS informed us it was in the process of
           compiling the assessments.
       •   Performance criteria are undefined – The contractor’s performance is difficult to
           measure due to a lack of documented performance measures. For example, the IRS does
           not document specific requirements, due dates, or estimated costs for most products and
           services. The IRS does not define performance criteria because most products and
           services are determined on an as-needed basis and are requested and developed over a
           short period of time. We agree that creating controls that cost more than the products and
           services being provided is not an efficient use of taxpayer funds; however, we believe
           performance criteria could be defined for significant7 products and services.
       •   Requirements to document the contractor’s performance are lacking – The IRS does
           not have procedures that require customers to document monitoring activities they


7
    The term “significant” refers to the nature and duration of the products and services.
                                                                                              Page 6
               Stronger Management Oversight Is Required to Ensure Valuable
               Systems Modernization Expertise Is Received From the Federally
                    Funded Research and Development Center Contractor



       perform. In some cases, this is due to the fact the IRS works side by side with the
       contractor.
   •   Feedback is not requested on the timeliness of contractor products and services –
       The monthly request for customer feedback asks for comments from customers on the
       quality of products and services received. If customers do not respond to the requests for
       feedback, the IRS assumes all services were received and acceptable. However, the
       request does not address whether contractor products and services were provided timely.
For multiple reasons, the IRS has not implemented strong internal controls to ensure the
contractor’s performance is adequately monitored. One major reason is because the FFRDC has
a unique relationship with the Government. As an FFRDC contractor, the contractor is viewed
as a partner, instead of a contractor. In addition, IRS officials believe the contractor provides
services that meet user expectations in terms of quality and timeliness. Some IRS officials also
indicated the contractor’s performance has improved over the past several years.
While our review of products and questionnaire responses also shows the contractor is providing
valuable products and services, some IRS officials were not completely satisfied with the
contractor’s performance. For example, the IRS informed us some contractor officials were
removed from the assignment due to poor performance. In addition, one key official responded
to our questionnaire with “somewhat disagreed” when asked if the contractor provided an
independent viewpoint that could not be attained internally. Another key official stated most
contractor officials are excellent; however, in some cases the services provided by the contractor
could have been provided by IRS officials.
If the IRS does not conduct timely performance
assessments, it may not be able to identify and correct
                                                                        Without strengthened
problems that could affect the contractor’s overall
                                                                     management oversight, the
performance. Additionally, untimely performance                       contractor could deliver
assessments may provide unreliable and incomplete                  products and services that do
information. For example, some IRS officials were not               not meet cost, schedule, and
available to comment on the products and services we              quality goals leading to wasteful
reviewed because they no longer worked for the IRS.                 spending of taxpayer funds.
Lastly, it is important for the IRS to ensure the millions of
dollars it spends on this contractor are spent wisely. Without strengthened management
oversight, the contractor could deliver products and services that do not meet cost, schedule, and
quality goals leading to wasteful spending of taxpayer funds.




                                                                                             Page 7
              Stronger Management Oversight Is Required to Ensure Valuable
              Systems Modernization Expertise Is Received From the Federally
                   Funded Research and Development Center Contractor



Recommendation
Recommendation 1: To ensure the value received from contractor activities remains high
and funds are spent wisely, the Chief Information Officer should develop a Task Order
Monitoring Plan for the FFRDC modernization task orders. The Monitoring Plan should
include:
   1. A requirement to conduct and document periodic evaluations throughout the year to
      assess quality, timeliness, and cost of contractor products and services.
   2. Criteria for measuring quality and timeliness of significant contractor products and
      services.
      Management’s Response: The Chief Information Officer agreed with our
      recommendation and will develop monitoring plans for FFRDC modernization task
      orders. The monitoring plans will include a requirement to conduct and document
      periodic evaluations to assess the timeliness, quality, and costs of deliverables and
      services provided by the FFRDC contractor.




                                                                                             Page 8
                 Stronger Management Oversight Is Required to Ensure Valuable
                 Systems Modernization Expertise Is Received From the Federally
                      Funded Research and Development Center Contractor



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the FFRDC contractor effectively
delivered services, and the IRS effectively and timely monitored the contractor’s performance.
To accomplish this objective, we:
I.      Determined whether products delivered by the contractor contributed to the achievement
        of objectives included in the statements of work.
        A. Selected a judgmental sample of 15 (7 percent) of 208 subtasks from 3 FY 2005 task
           orders specifically related to the IRS modernization effort.1 For the 15 subtasks
           included in our sample, we selected 29 products delivered by the contractor for
           review.2 We selected a judgmental sample because we did not plan to project our
           results.
        B. Determined whether products delivered by the contractor contributed to the
           achievement of objectives in the statements of work.3
II.     Determined whether the IRS has processes in place to effectively and timely monitor the
        contractor’s performance.
        A. Determined whether the IRS is conducting annual assessments of the contractor’s
           performance as required by the Federal Acquisition Regulation4 and the FFRDC
           contract.
        B. Identified best practices that could be implemented by IRS officials to monitor the
           contractor’s performance.



1
  Modernization task orders for the contract include the Program Director Offices’ Support, Program Management,
and System Integration task orders.
2
  The 3 task orders included 208 subtasks; however, the contractor was not instructed to provide services for all
subtasks. We initially selected a judgmental sample of 20 subtasks, about 10 percent of the population. We then
met with IRS officials to discuss our initial sample selection. Based on discussions with IRS officials, we removed
some subtasks initially included in our sample because the contractor did not provide services related to the
subtasks. We also added other subtasks that were deemed significant by IRS officials. The adjustments reduced our
sample to 15 subtasks.
3
  We did not evaluate 4 of the 29 products submitted by the contractor because the products were not submitted
during FY 2005, which was the focus of our review. This reduced the number of subtasks for which we reviewed
products delivered by the contractor to 13 subtasks.
4
  48 C.F.R. pt 42.1502 (2005).
                                                                                                           Page 9
              Stronger Management Oversight Is Required to Ensure Valuable
              Systems Modernization Expertise Is Received From the Federally
                   Funded Research and Development Center Contractor



III.   Determined whether contractor services that did not directly result in products
       significantly contributed to the achievement of stated task order objectives.
       A. Developed a questionnaire to document the quality and timeliness of contractor
          services (advice and expertise). We submitted the questionnaire to all 10 key IRS
          officials responsible for monitoring the contractor’s performance, and we received
          feedback from 8 (80 percent response rate).
       B. Summarized responses to our questionnaire to provide the IRS perspective on the
          value of services that did not directly result in products.




                                                                                         Page 10
              Stronger Management Oversight Is Required to Ensure Valuable
              Systems Modernization Expertise Is Received From the Federally
                   Funded Research and Development Center Contractor



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Troy D. Paterson, Audit Manager
James A. Douglas, Lead Auditor
Tina Wong, Senior Auditor
Perrin T. Gleaton, Auditor
Suzanne M. Noland, Auditor




                                                                                     Page 11
             Stronger Management Oversight Is Required to Ensure Valuable
             Systems Modernization Expertise Is Received From the Federally
                  Funded Research and Development Center Contractor



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Applications Development OS:CIO:B
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Deputy Associate Chief Information Officer, Applications Development OS:CIO:AD
Director, Procurement OS:A:P
Director, Stakeholder Management OS:CIO:SM
Deputy Associate Chief Information Officer, Business Integration OS:CIO:ES:BI
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:ES:SI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CIO:B
       Director, Procurement OS:A:P
       Director, Program Oversight OS:CIO:SM:PO




                                                                                 Page 12
                Stronger Management Oversight Is Required to Ensure Valuable
                Systems Modernization Expertise Is Received From the Federally
                     Funded Research and Development Center Contractor



                                                                          Appendix IV

                              Glossary of Terms

Term                                   Definition
Best Practice                          A technique or methodology that, through
                                       experience and research, has proven to reliably
                                       lead to a desired result.
Customer Account Data Engine           The foundation for managing taxpayer accounts in
                                       the IRS modernization plan. It will consist of
                                       databases and related applications that will replace
                                       the existing IRS Master File processing systems
                                       and will include applications for daily posting,
                                       settlement, maintenance, refund processing, and
                                       issue detection for taxpayer tax account and return
                                       data.
Federally Funded Research and          An organization that uses private resources to
Development Center                     accomplish tasks that cannot be effectively
                                       completed by existing Federal Government
                                       employees or contractors.
Integrated Financial System            Intended to address administrative financial
                                       management weaknesses. The first release of the
                                       Integrated Financial System will include the
                                       Accounts Payable, Accounts Receivable, General
                                       Ledger, Budget Execution, Cost Management, and
                                       Financial Reporting activities. A future release
                                       will be needed to fully resolve all administrative
                                       financial management weaknesses.
Performance Standards or Criteria      Criteria used to measure the quality, timeliness,
                                       and cost of delivered products or services.
Release                                A specific edition of software.
Statement Of Work                      Documents the work to be performed by the
                                       contractor, period of performance, performance
                                       standards, and special requirements.



                                                                                   Page 13
             Stronger Management Oversight Is Required to Ensure Valuable
             Systems Modernization Expertise Is Received From the Federally
                  Funded Research and Development Center Contractor



Term                                Definition
Task Order                          An order for services planned against an
                                    established contract.
Task Order Monitoring Plan          A plan that documents the responsibilities and
                                    criteria for collecting and documenting monitoring
                                    information (e.g., costs, timeliness, and quality of
                                    performance).




                                                                                Page 14
   Stronger Management Oversight Is Required to Ensure Valuable
   Systems Modernization Expertise Is Received From the Federally
        Funded Research and Development Center Contractor



                                                     Appendix V

Management’s Response to the Draft Report




                                                           Page 15
Stronger Management Oversight Is Required to Ensure Valuable
Systems Modernization Expertise Is Received From the Federally
     Funded Research and Development Center Contractor




                                                        Page 16
